Report No. DODIG-2012-085           May 10, 2012




      American Recovery and Reinvestment Act - U.S.
       Army Corps of Engineers Los Angeles District
      Contractor Performance and Reporting Controls
                 Were Generally Effective
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Inspector General
                      Office of the Deputy Inspector General for Auditing
                      Attn: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACO                           Administrative Contracting Officer
AFARS                         Army Federal Acquisition Regulation Supplement
AFB                           Air Force Base
CEFMS                         Corps of Engineers Financial Management System
COR                           Contracting Officer’s Representative
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
FSRM                          Facilities Sustainment, Restoration, and Modernization
OMB                           Office of Management and Budget
SBA                           Small Business Administration
USACE                         U.S. Army Corps of Engineers
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE 

                                  4800 MARK CENTER DRIVE 

                               ALEXANDRIA. VIRGINIA 22350-1500 




                                                                             May 10,2012

MEMORANDUM FOR COMMANDING GENERAL, U.S. ARMY CORPS OF
                 ENGINEERS
               AUD ITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act-U.S. Army Corps of Engineers
         Los Angeles District Contractor Performance and Reporting Controls Were
         Generally Effective (Report No . DODIG-2012-085)

We are providing this report for your information and use. This report discusses the U.S.
Army Corps of Engineers Los Angeles District contractor performance and reporting
controls over 10 contract actions valued at $56.6 million at Phoenix, Arizona; Edwards
Air Force Base, California; and San Diego, California. Contracting officials fulfilled
their contract administration responsib ilities, and contractor performance and reporting
controls were generally effective to ensure that the 10 contract actions were properly
executed. However, contracting officers did not verify that personnel with delegated
responsibilities were adequately trained. In addition; contracting officers did not prepare
and issue delegation letters correctly.

We considered management comments on a draft of this repOli when preparing the fina l
report. Comments from the Commander, U.S. Army Corps of Engineers Los Angeles
District, conformed to the requirements of DoD Directive 7650.3 and were responsive.
Therefore, additional comments are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8938 (DSN 664-8938).


                                             ~ fI>.J~
                                              Richard B. Vasquez, CPA
                                              Acting Assistant Inspector General
                                              Financia l Management and Reporting
Report No. DODIG-2012-085 (D2011-D000FH-0146.001)	                                 May 10, 2012


               Results in Brief: American Recovery and
               Reinvestment Act–U.S. Army Corps of
               Engineers Los Angeles District Contractor
               Performance and Reporting Controls Were
               Generally Effective
                                                          Specifically, contracting officers did not:
What We Did
We determined whether DoD and its Components              •	 select CORs who had documentation proving
implemented Public Law 111-5, “American                      they had completed required training;
Recovery and Reinvestment Act of 2009,”                   •	 prepare delegation letters that complied with
(Recovery Act). Specifically, we evaluated the               the Federal Acquisition Regulation; and
effectiveness of Government controls over                 •	 confirm that delegated responsibilities were
contractor performance and reporting on selected             performed.
projects, including contracts awarded to qualified
small businesses. We reviewed 10 contract                 This occurred because contracting officers did not
actions valued at $56.6 million.                          place a high priority on verifying that personnel
                                                          completed all required training and on preparing
What We Found                                             and issuing delegation letters correctly. As a
                                                          result, USACE Los Angeles could experience
The U.S. Army Corps of Engineers Los Angeles              increased financial risk when administering future
District (USACE Los Angeles) contractor                   contracts.
performance and reporting controls were generally
effective to ensure that the 10 contract actions          What We Recommend
were properly executed. Contracting personnel             The Chief, Contracting Division, USACE
established adequate quality controls to:                 Los Angeles, should update the contract
                                                          administration guidance to implement stronger
•	 ensure that Recovery Act funds were used for
                                                          controls for contracting officers to follow when
   contract requirements,
                                                          selecting, delegating, and monitoring personnel to
•	 monitor the contract actions so that contract
                                                          assist with contract administration responsibilities.
   requirements were met, and
•	 make certain that the use of funds was                 Management Comments and
   reported in a clear and understandable manner.
                                                          Our Response
USACE Los Angeles accepted the contracted                 The Chief, Contracting Division, agreed with all
goods and services without unnecessary delays             recommendations and stated that USACE
and cost overruns for eight completed contract            Los Angeles would document and improve its
actions and the work completed as of May 2011             training of individuals performing contract
on two ongoing contract actions. However,                 administration responsibilities and update its
contracting officers needed stronger controls when        processes to ensure regulatory compliance. The
delegating contract administration responsibilities       Chief stated that these actions would be completed
to administrative contracting officers and                during this fiscal year. No further comments are
contracting officer’s representatives (CORs).             required. Please see the recommendations table on
                                                          the back of this page.




                                                      i
 Report No. DODIG-2012-085 (D2011-D000FH-0146.001)           May 10, 2012

 Recommendations Table

         Management                Recommendations    No Additional Comments
                                  Requiring Comment            Required
Chief, Contracting Division,                          B.1, B.2.a, B.2.b, B.3
U.S. Army Corps of Engineers,
Los Angeles District




                                        ii
Table of Contents

Introduction	                                                                 1


      Audit Objective                                                         1

      Recovery Act Background                                                 1

      USACE Los Angeles Needs Better Guidance on Contracting Officer

        Responsibilities                                                      4


Finding A. Contractor Performance and Reporting Controls Were 

Generally Effective                                                           5


      Contracting Personnel Effectively Managed Contractor Performance and

         Reporting Controls                                                   5

      Contracting Personnel Confirmed Contractor’s Small Business Status      9

      Conclusion                                                              9


Finding B. Contracting Officers Needed Stronger Controls When Delegating 

Contract Administration Responsibilities                                      10 


      ACOs and CORs Generally Fulfilled Contract Administration

         Responsibilities                                                     10 

      Contracting Officers Did Not Properly Delegate or Monitor ACO 

        and COR Responsibilities                                              11 

      Higher Priority Needed for Training, Delegation Letter Preparation, 

         and Followup                                                         16 

      Recommendations, Management Comments, and Our Response                  16 


Appendices

      A. 	Scope and Methodology                                               19 

             Use of Computer-Processed Data                                   20 

             Use of Technical Assistance                                      20 

             Prior Coverage of Recovery Act Audits                            20 

      B. Recovery Act Criteria and Guidance	                                  22 

      C. Recovery Act Contract Actions Reviewed at USACE Los Angeles          24 


Management Comments

      United States Army Corps of Engineers, Los Angeles	                     25 

Introduction
Audit Objective
The objective of this audit was to determine whether DoD and its Components were
implementing Public Law 111-5, “American Recovery and Reinvestment Act of 2009”
(Recovery Act). Specifically, we evaluated the effectiveness of Government controls at
the U.S. Army Corps of Engineers Los Angeles District (USACE Los Angeles) over
contractor performance and reporting on selected contract actions, including contracts
awarded to qualified small businesses. See Appendix A for a discussion of our scope and
methodology as well as prior audit coverage of the Recovery Act.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009.

       The purposes of this Act include the following:
           (1) To preserve and create jobs and promote economic recovery.
           (2) To assist those most impacted by the recession.
           (3) To provide investments needed to increase economic efficiency by
               spurring technological advances in science and health.
           (4) To invest in transportation, environmental protection, and other
               infrastructure that will provide long-term economic benefits.
           (5) To stabilize State and local government budgets, in order to minimize
               and avoid reductions in essential services and counterproductive state
               and local tax increases.
               .        .        .        .        .        .        .
        The heads of Federal departments and agencies shall manage and expend the
        funds made available in this Act so as to achieve the purposes specified …
        including commencing expenditures and activities as quickly as possible
        consistent with prudent management.

Office of Management and Budget, Federal Acquisition
Regulation, and DoD Recovery Act Guidance
Criteria for planning and implementing the Recovery Act changed during 2009 through
2011 as the Office of Management and Budget (OMB) issued memoranda to address the
implementation of the Recovery Act. Additional implementing guidance was issued in
the Federal Acquisition Regulation (FAR) and by DoD and its Components. See
Appendix B for a list of Federal Government Recovery Act criteria and guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DoD for
the following programs: Energy Conservation Investment; Facilities Sustainment,




                                                  1

Restoration, and Modernization (FSRM); 1 Homeowners Assistance; Military
Construction; Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers–Civil Works. The Recovery Act divides the approximately $12 billion among
32 DoD and USACE line items of appropriation. The values of the six Recovery Act
programs are shown in Table 1.

       Table 1. DoD Agency-Wide and Program-Specific Recovery Act Programs
                              Program                          Amount
                                                             (in millions)
      Energy Conservation Investment                              $120
      Facilities Sustainment, Restoration, and Modernization     4,260*
      Homeowners Assistance                                        555
      Military Construction                                      2,185
      Near Term Energy-Efficient Technologies                      300
      U.S. Army Corps of Engineers–Civil Works                   4,600
         Total                                                $12,020*
    *On August 10, 2010, Public Law 111-226, Title III, “Rescissions,” rescinded $260.5 million of funds from

    DoD Operation and Maintenance Accounts supporting the Recovery Act. This reduced the DoD Recovery Act

    FSRM amount to approximately $4 billion, and total DoD agency-wide and program-specific Recovery Act

    funding to approximately $11.76 billion.



USACE Mission
USACE is comprised of two major programs: the Civil Works Program and Military
Programs. The mission of USACE–Civil Works is to (1) contribute to the national
welfare and serve the nation with quality, responsive development and management of
the nation’s water resources; (2) protect, restore, and manage the environment;
(3) respond to disasters and aid in recovery; and (4) provide engineering and technical
services. The USACE Military Programs mission is to provide premier engineering and
construction, real estate, stability operations, and environmental management products
and services for the Army, Air Force, other assigned U.S. Government agencies, and
foreign governments. This report discusses Recovery Act projects at USACE
Los Angeles.

Recovery Act Projects at USACE Los Angeles
USACE Los Angeles, one of the largest Civil Works districts in the United States, covers
226,000 square miles across California, Nevada, Utah, and Arizona. Its mission is to
perform civil works, military construction, real estate operations, regulatory actions, and




1
  The DoD FSRM Program helps to ensure that Department facilities are maintained; meet national security
standards; and provide, operate, and sustain suitable housing, medical, and base facilities for warfighters
and their families in a cost-effective manner.

                                                         2

support for other agencies. We reviewed 10 contract actions 2 for the following four
projects at USACE Los Angeles in California and Arizona.

•	 Edwards Air Force Base Projects. Edwards Air Force Base (AFB) in California
   supports the research, development, test, and evaluation of aerospace systems to
   ensure that current and future airmen have proven equipment when flying into harm’s
   way. We reviewed two Recovery Act projects at Edwards AFB. Three contractors
   in the Small Business Development 8(a) Program performed both projects.

    o	 The first project, Energy and Monitoring Control System/Supervisory Control and
       Data Acquisition, reduces energy and maintenance costs in buildings across the
       base through the installation of sensors and controllers to more efficiently control
       water, heating, and other environmental systems. Total funding for the project is
       $4.7 million.                                     Figure 1. Taxiway Light With
                                                                         Blue Light-Emitting Diode
    o	 The second project, Repair Taxiway

       Cable/Transformer, is for the repair of 

       taxiway cables and the replacement of

       taxiway blue light-emitting diode light bulbs

       on multiple taxiways across the base. The 

       contract has total funding of $3.5 million. 


•	 San Diego River and Mission Bay Project.
   The San Diego River and Mission Bay project consisted of repairing the middle jetty3
   at the entrance of the channel to Mission Bay and dredging sections of Mission Bay
   Harbor in San Diego County, California. Wave action from storms had damaged
   about 220 feet of the jetty, making navigation near it hazardous and requiring about
   17,000 tons of rock, positioned using barge and crane, to repair it.

    o	 USACE Los Angeles contracting personnel awarded a prime contract to transport
       stones by barge from a nearby quarry and position them to rebuild the jetty.

    o	 They awarded a second prime contract for the dredging of sediment that had filled
       the Mission Bay Channel since its last dredging in 1984. To support the dredging,
       contracting personnel awarded two task orders for mapping the location of
       protected plant species and for analyzing the sediment to determine its suitability
       for placement on Mission Beach. The project’s total funding is $7.9 million.




2
  A contract action consists of fixed-price contracts as well as task orders or modifications to an existing

contract. See Appendix C for a complete list of contract actions we reviewed.

3
  A jetty is a structure extended into a sea, lake, or river to influence the current or tide or to protect a 

harbor.


                                                        3

                        Figure 2. Tres Rios Wetlands (Left) With Wildlife (Right)




       •	 Tres Rios Project. The Tres Rios project consisted of designing and constructing
          a pump station and adjacent wetlands at a wastewater treatment plant operated by
          the City of Phoenix, Arizona.

           o	 USACE Los Angeles contracting personnel awarded a prime contract for the
              construction of approximately 400 acres of wetlands that can receive and help
              further clean the highly treated effluent 4 from the treatment plant.
           o	 They awarded a second prime contract for the construction of an effluent
              pump station at the wastewater treatment plant that can provide up to
              460 million gallons a day of effluent from the treatment plant to the
              constructed wetlands.
           o	 They awarded a third contract for the design of both the wetlands and pump
              station.

           These three contracts have total Recovery Act funding of $40.5 million.

USACE Los Angeles Needs Better Guidance on
Contracting Officer Responsibilities
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified one internal
control weakness for the delegation of contract administration responsibilities at
USACE Los Angeles. Specifically, the contracting officers did not obtain documentation
showing that the personnel to whom they delegated responsibilities were adequately
trained. In addition, contracting officers did not prepare and issue all delegation letters
correctly, and they did not ensure that all personnel performing contract administration
responsibilities were properly delegated. We will provide a copy of the report to the
senior official in charge of internal controls at USACE Los Angeles.



4
    Effluent is sewage that has been treated in a septic tank or sewage treatment plant.

                                                        4

Finding A. Contractor Performance and
Reporting Controls Were Generally Effective
The USACE Los Angeles contractor performance and reporting controls were generally
effective for 10 contract actions valued at $56.6 million. Specifically, contracting
personnel:

    •	 effectively managed quality controls over contractor performance for the 

       10 contract actions;

    •	 ensured that Recovery Act funds were available and used to meet contract

       requirements, including timely and proper payments to contractors;

    •	 monitored the 10 contract actions to ensure that contract requirements were met;
       and
    •	 validated that recipients reported their use of Recovery Act funds in a clear and
       understandable manner.

In addition, USACE Los Angeles contracting personnel effectively validated contractor’s
small business status. As a result, the Government accepted the contracted goods and
services without unnecessary delays and cost overruns for eight completed contract
actions and the work completed as of May 2011 on two ongoing contract actions.

Contracting Personnel Effectively Managed Contractor
Performance and Reporting Controls
Generally, the USACE Los Angeles contracting personnel properly executed Recovery
Act projects, including managing contractor performance, administering contract
funding, monitoring delivery of intended outcomes, and reporting the use of Recovery
Act funds. 5 We non-statistically selected 4 of 81 projects at USACE Los Angeles based
on project funding in excess of $1 million, ongoing or completed contracts, and contracts
awarded to 8(a) small businesses. The 4 projects we selected had 10 contract actions
valued at $56.6 million.

For the 10 contract actions, USACE contracting personnel prepared inspection reports
and other supporting documentation that detailed the work performed by the contractor.
They also obtained and reviewed pay estimates, pay requests, invoices, and other
payment supporting documentation from the contractors before processing payments.
They performed these reviews to ensure that the amounts paid were appropriate. In
addition, USACE contracting personnel reviewed submissions to
www.FederalReporting.gov to validate that the contractors complied with the Recovery
Act recipient reporting requirements.


5
  Although administrative contracting officers and contracting officer’s representatives at USACE Los
Angeles generally fulfilled their contract administration responsibilities, contracting officers needed
stronger controls when delegating individuals as administrative contracting officers and contracting
officer’s representatives. See Finding B for more information on this issue.

                                                     5

Contracting Personnel Effectively Managed Quality Controls
Over Contractor Performance
USACE Los Angeles personnel effectively managed quality controls over contractor
performance for the 10 contract actions we audited.
Federal Acquisition Regulation (FAR) 46.2,                        Each contract action
“Contract Quality Requirements,” states that the              reviewed  had a Contractor
contracting officer should include in the solicitation          Quality Control  Plan or
and contract the appropriate quality requirements.          similar quality assurance plan
The type and extent of contract quality requirements           in place to ensure that all
needed depends on the particular acquisition and may         requirements of the contract
range from the inspection of goods and services at the               would be met.
time of acceptance to a requirement for the
contractor’s implementation of a comprehensive program for controlling quality. Each
contract action reviewed had a Contractor Quality Control Plan or similar quality
assurance plan in place to ensure that all requirements of the contract would be met.

The Contractor Quality Control Plan identifies the personnel, procedures, controls,
instructions, tests, records, and forms the contractor is to use, and it establishes the
contractor’s responsibilities for maintaining an effective quality control system.
FAR 46.202-3, “Standard Inspection Requirements,” requires the contractor to provide
and maintain an inspection system and requires the contractor to keep complete, and
make available to the Government, records of its inspection work. It also gives the
Government the right to make inspections and tests while work is in process. The
Government performs inspections to ensure contractor compliance with specifications
and regulations. Inspection activities must also include monitoring of subcontractor
performance, inventory control, and procurement actions.

The 10 contract actions included the Contractor Quality Control Plan or similar quality
assurance plan within either the contract, statement of work, or contract administration
plan. USACE Los Angeles inspectors documented inspection results daily in the Quality
Assurance Reports. The inspection reports for the 10 contract actions showed that
USACE inspectors documented the date, location, description of work performed, and if
applicable, deficiencies found during their inspection. When they found deficiencies,
they notified the contractor so it could take corrective action.

For example, at the Phoenix project site, we reviewed the Deficiency Items report, which
described the deficiencies found, the location at the project site where the deficiencies
were observed, the status of the deficiencies, and the date the deficiency notices were
issued. The deficiencies were well documented, and the reports showed that the USACE
quality assurance personnel agreed with the corrective measures the contractor took to
eliminate the deficiencies.

In addition, USACE Los Angeles personnel provided documentation to support that the
10 contract actions included the contractor requirements in the Contractor Quality

                                             6

Control Plan or similar quality assurance plan. USACE Los Angeles contracting
personnel effectively managed contractor quality controls.

Recovery Act Funds Were Available for Contract Requirements
and Contractor Payments
Contracting personnel administered Recovery Act funds to meet contract requirements,
including timely and proper payments to contractors. In order to fund Recovery Act
projects, USACE Headquarters used funding authorization documents 6 to transfer money
to USACE Los Angeles. For Civil Works projects, USACE Headquarters also prepared
work allowance letters 7 authorizing the use of Recovery Act funds on individual projects.
USACE Military Programs used the funding authorization and funding distribution
documents, which showed that money was transferred from the district to the individual
projects.
                                                    Our review of 25 pay estimates,
Our review of 25 pay estimates, pay requests,         pay requests, and supporting
and supporting invoices, valued at                         invoices, valued at
approximately $16.4 million, showed that the          approximately $16.4 million,
pay the contractors requested matched the                showed that the pay the
payments USACE approved. We compared the             contractors requested matched
pay requests and pay estimates to the funding       the payments USACE approved.
data within the Resident Management System.
The progress payment history in the Resident Management System showed the payment
due date, date the payment was paid, and the amount paid. We verified the due date and
amount paid in the progress payment history to the pay estimate.

We also compared the pay requests and pay estimates to the funding data within the
Corps of Engineers Financial Management System (CEFMS). The “Obligation Line Item
Status” showed the amount that was obligated and the amount paid in CEFMS for each
line item. The “Pay Estimate View Screen” in CEFMS showed the amount approved for
payment to the contractor for the monthly invoice. The dollar amounts and invoice
numbers in the contractor-supplied pay requests and USACE pay estimates matched the
USACE-prepared progress schedules and data in CEFMS “Obligation Line Item Status”
and “Pay Estimate View Screens.”

In addition, USACE contracting personnel ensured that contractor payments were
approved in a timely manner. FAR 52.232-26, “Prompt Payment for Fixed-Price
Architect-Engineer Contracts,” states that the due date for making invoice payments is
the 30th day after the designated billing office receives a proper invoice from the
contractor or the 30th day after Government acceptance of the work or services completed
by the contractor. FAR 52.232-27, “Prompt Payment for Construction Contracts,” also


6
  The funding authorization document, prepared by USACE Headquarters Resource Management
personnel, allows money to transfer from USACE Headquarters to the district.
7
  The work allowance letter provides instructions from USACE Headquarters for the allocation of the funds
available under the funding authorization document and allows money to transfer from the district to the
individual projects.

                                                   7

states that the due date for making payments for construction contracts is 14 days after
the designated billing office receives a proper payment request. USACE contracting
personnel paid contractors no more than the amount requested, and they made payments
within the 14- or 30-day time frame for 24 of the 25 pay requests we reviewed.

USACE Los Angeles Contracting Personnel Implemented and
Monitored Recovery Act Projects
USACE Los Angeles contracting personnel monitored the 10 contract actions to ensure
that contract requirements were met. Specifically, the 10 contract actions provided for
improvements to indoor environmental systems and taxiways, channel dredging, jetty
repair, and additional wetlands. Contracting personnel used appropriate quality assurance
plans, daily quality assurance reports, and contractor daily quality control reports to
evaluate the quality and timeliness of work performed.

As of May 2011, USACE Los Angeles contracting personnel monitored eight completed
and two ongoing contract actions valued at $45.5 million. For the eight completed
contract actions, contracting personnel conducted the
final inspections when required and noted deficiencies        Contracting personnel
that needed corrective action before final acceptance.         conducted the final
FAR 4.804-4, “Physically Completed Contracts,”                   inspections when
states that a contract is complete when the contractor         required and noted
has performed all services and the Government has            deficiencies that needed
accepted these services, or the contract period has          corrective action before
expired. For the two ongoing contract actions, the               final acceptance.
quality assurance reports documented the inspectors’
daily results and any issues they determined the contractors needed to address. The
reports also documented weather-related issues that delayed the contractor’s schedule.
For instance, on November 3, 2009, the contractor’s report showed that the weather
caused a critical delay because waves reached 11.5 feet high and posed a danger to those
working near the ocean.

USACE inspectors properly monitored and documented the contractor’s performance and
communicated any issues to the contractor for corrective action. We noted no contractor-
induced delays or significant quality control issues.

Recipients Adequately Reported the Use of Recovery Act Funds
Contracting officers complied with Recovery Act oversight requirements to ensure that
recipients reported their use of Recovery Act funds in a clear and understandable manner.
FAR 4.15, “American Recovery and Reinvestment Act–Reporting Requirements,”
requires contractors receiving Recovery Act funds to report on the use of those funds
quarterly. In addition, FAR 4.15 states that contractors that receive awards or
modifications to awards funded by the Recovery Act must report information, including
but not limited to:

   •   the dollar amount of contractor invoices;
   •   the supplies delivered and services performed;

                                            8

   •	 an assessment of the completion status of the work;
   •	 an estimate of the number of jobs created and the number of jobs retained as a
      result of the Recovery Act funds;
   •	 names and total compensation of each of the five most highly compensated
      officers for the calendar year in which the contract is awarded; and
   •	 specific information on first-tier subcontractors.

USACE Los Angeles contracting personnel accessed www.FederalReporting.gov to
verify that the contractors reported the required information and that the reports were
clear, understandable, and complete. For example, each report contained the general
purpose of the award as well as the nature of the activities being performed, location of
the recipients, cost and status of the contracts, project outcomes, scope of the projects,
number of jobs created and retained, and information about the subcontractors. The
contractor included the required information in the reports and complied with the
Recovery Act requirements to adequately report the use of Recovery Act funds.

Contracting Personnel Confirmed Contractor’s Small
Business Status
Contracting personnel effectively validated the contractor’s small business status. FAR
19.804-3, “Small Business Administration Acceptance,” states that the Small Business
Administration (SBA) will determine whether to accept the contractor’s requirement for
the 8(a) Program. The Small Business Specialist at USACE Los Angeles contacts SBA
to confirm the contractor’s 8(a) Program status. SBA provides a letter to USACE Los
Angeles, certifying that a business is eligible.
  Contracting personnel
 effectively validated the     We reviewed three contracts designated for disadvantaged
    contractor’s small         small business set-asides. The three contract files contained
  business status before       the Small Business Coordination Record showing that
 awarding the contracts.       contracting personnel verified the contractor’s 8(a) Program
                               acceptance with SBA and the contractor’s 8(a) acceptance
                               letter from SBA. Therefore, contracting personnel
effectively validated the contractor’s small business status before awarding the contracts.

Conclusion
USACE Los Angeles contracting personnel effectively managed quality controls over the
10 contract actions, valued at $56.6 million, to ensure that an adequate contractor quality
control system was in place and the contractor delivered the intended outcomes for the
projects. Contracting personnel ensured that Recovery Act funds met contract
requirements and that projects were fully funded. Contracting personnel also effectively
validated the contractors’ small business status and ensured that contractors reported their
use of Recovery Act funds. As a result, the Government accepted the contracted goods
and services without unnecessary delays and cost overruns for eight completed contract
actions and the work completed as of May 2011 on two ongoing contract actions.



                                             9

Finding B. Contracting Officers Needed
Stronger Controls When Delegating Contract
Administration Responsibilities
Administrative contracting officers (ACOs) and contracting officer’s representatives
(CORs) at USACE Los Angeles generally fulfilled their contract administration
responsibilities; however, contracting officers did not:

    •	 verify that 8 of the 11 personnel with delegated responsibilities were adequately
       trained,
    •	 prepare and issue 26 of the 40 delegation letters 8 correctly, and
    •	 execute a delegation letter for one project engineer performing contract 

       administration responsibilities.


This occurred because contracting officers did not have adequate guidance and did not
place a high priority on verifying that personnel had completed all required training when
assisting with contract administration and on preparing and issuing delegation letters
correctly. Also, contracting officers did not confirm that personnel selected to perform
delegated responsibilities were actually performing them. As a result, USACE Los
Angeles could experience increased financial risks if contracting officers do not
effectively delegate contract administration responsibilities before contract award and
monitor selected personnel to ensure that they perform those responsibilities.

ACOs and CORs Generally Fulfilled Contract
Administration Responsibilities
ACOs and CORs at USACE Los Angeles generally fulfilled their contract administration
responsibilities. Contracting officers delegated those responsibilities to ACOs and CORs
for each contract action for the four sample projects we audited.

To deal with the day-to-day management of contracts at remote locations, ACOs are
generally delegated authority to:

    •	 execute unilateral administrative modifications;
    •	 modify construction contracts within the scope of the contract;
    •	 modify construction contract performance periods if the delay is not the fault of
       the contractor; and



8
 We collected 18 delegation letters issued to ACOs and 22 letters issued to CORs. Seven USACE
individuals served as ACOs and 12 served as CORs (1 has retired). In several cases, the same individual
served as either an ACO or COR for more than one contract action. In general, employee turnover and
delegation of alternate ACOs with additional authority increased the number of ACOs and CORs assigned
to the contract actions we audited.

                                                  10 

    •	 perform any of the contract administration functions in FAR 42.302, “Contract
       Administration Functions.”

CORs are delegated limited functions, such as the following:

    •	 verify that the contractor performs the technical requirements of the contract;
    •	 perform, or have performed, inspections necessary to verify that the contractor
       has corrected all deficiencies;
    •	 perform acceptance for the Government of services performed under the contract;
    •	 maintain liaison and direct communication with the contractor;
    •	 monitor the contractor’s performance;
    •	 coordinate site entry for contractor personnel; and
    •	 withhold contract funds for the Davis-Bacon Act 9 violations, if any, by the

       contractor.


Contracting officers delegate contract administration responsibilities to ACOs and CORs
using a standard format, or template, to prepare either an ACO or COR delegation letter.
A copy of the delegation letter signed by the contacting officer is mailed to the delegated
individual and the contractor. The delegated individual and contractor are required to
acknowledge receipt of the letter on one of the two copies provided, return that copy to
the contracting officer for placement in the official contract files, and retain the remaining
copy for their records.

Contracting Officers Did Not Properly Delegate or
Monitor ACO and COR Responsibilities
USACE Los Angeles contracting officers did not always ensure that ACOs and CORs
received proper training to administer contracts. In addition, contracting officers did not
properly prepare and issue delegation letters to all personnel executing contract
administration responsibilities. Furthermore,
contracting officers did not monitor work                  Contracting officers did not
performed by ACOs and CORs to ensure that                  monitor work performed by
delegated responsibilities were fulfilled.                      ACOs and CORs.

CORs Need to Meet Refresher Training Requirements
Contracting officers at USACE Los Angeles did not always verify that personnel
delegated to perform contract administration responsibilities had met their training
requirements. The Defense Federal Acquisition Regulation Supplement (DFARS)
201.602-2, “Responsibilities,” states that CORs must have appropriate training and
experience equal to their delegated responsibilities in accordance with DoD guidelines.




9
 The Davis-Bacon Act applies to contracts exceeding $2,000 for the construction, alteration, or repair of
public buildings or public works and requires contractors to pay no less than the locally prevailing wages
and fringe benefits for corresponding work on similar projects in the area.

                                                    11 

On July 2, 2008, the Director, USACE National Contracting Organization, issued
Procurement Instruction Letter 2008-10-1, “Contracting Officer’s Representative
Training Requirements,” to implement a standardized training policy for the appointment
of individuals who will represent the contracting officer as a COR for construction,
supply, service, and architect-engineer contracts. The letter requires that CORs complete
the following every 3 years as a part of their COR refresher training:

    •	 Defense Acquisition University Continuous Learning Module 106, “Contracting
       Officer Representative with a Mission Focus” (8 hours)
    •	 Defense Acquisition University Continuous Learning Module 003, “Ethics
       Training for Acquisition Technology and Logistics” (2 hours)
    •	 Technical area training (6 hours)

We requested that officials at USACE Los Angeles provide certificates of completion for
the courses taken to meet the above training requirements by each of the 11 CORs
currently employed by USACE and assigned to our
sample projects. USACE officials provided no                     Only 3 of 11 CORs
documentation for two CORs and only partial                   assigned to the projects
documentation for six CORs. Only 3 of 11 CORs                  in our sample provided
assigned to the projects in our sample provided                documentation to show
documentation to show they met their COR refresher               they met their COR
training requirements. When asked to explain the                  refresher training
reason for the lack of training documentation, USACE                requirements.
officials stated that they were updating and
consolidating their COR files in order to readily locate and track all completed COR
training. Contracting officers, however, should select individuals with documentation of
their completion of COR refresher training requirements before delegating contracting
administration responsibilities to them.

Delegation Letters Were Not Always Prepared
and Issued Correctly
Contracting officers did not always comply with the requirements of the FAR and its
supplements when preparing and issuing delegation letters. We reviewed 18 ACO and
22 COR delegation letters and found that 26 letters were not prepared and issued
correctly.

FAR 42.202(a) (1), “Assignment of Contract Administration,” states that the delegation
of authority for both ACOs and CORs should include the name and address of the
contract administration office of the ACO or COR designated to perform the contract
administration responsibilities. USACE contracting officers did not always prepare
delegation letters that included the complete address of the contract administration office.
Specifically, 4 of the 18 ACO delegation letters did not contain complete address
information.

DFARS 201.602-2 requires, in part, that a COR delegation letter identify the limitations
on the COR’s authority, state that the authority is not redelegable, and state that the COR

                                            12 

may be personally liable for unauthorized acts. USACE contracting officers, however,
prepared and issued 4 of 22 COR delegation letters that omitted these three requirements.
In addition, the Army Federal Acquisition Regulation Supplement (AFARS) 5101.602-2,
“Responsibilities,” states that a properly trained COR must be designated in writing
before contract award. However, USACE contracting officers did not always designate a
COR before contract award. Specifically, 18 of the 22 COR delegation letters 10 were
issued on or after the contract award date. Table 2 summarizes the DFARS and AFARS
deficiencies for each of the 22 COR delegation letters.

                    Table 2. Deficiencies in 22 COR Delegation Letters

                         Per DFARS and AFARS Requirements

                                                   Edwards          San
                  Deficiency                                                   Phoenix       Total
                                                    AFB            Diego
     Limits to Authority Not Addressed                0              3            1            4
     Redelegation Not Addressed                       0              3            1            4
     Personal Liability for Unauthorized
                                                          0          3            1            4
     Acts Not Addressed
     Designated On or After Contract Award                7           5           6            18
       Total                                              7          14           9            30

Contracting officers did not correctly prepare and issue 4 of the 18 ACO delegation
letters and 22 of the 22 COR delegation letters. Further, as shown in Table 2, contracting
officers’ failure to follow DFARS and AFARS requirements resulted in a total of
30 deficiencies among the 22 COR delegation letters.

Contracting officers at USACE Los Angeles use a standard template when preparing a
COR delegation letter. This template generally includes the same requirements and
                                     content as found in AFARS 5153.9001, “Sample
  The template, however, does        Contracting Officer’s Representative (COR)
      not include the AFARS          Designation.” The template, however, does not
    requirement for a COR to         include the AFARS requirement for a COR to
   maintain adequate records.        maintain adequate records to sufficiently describe the
                                     performance of duties as a COR during the life of the
contract and to dispose of such records as directed by the contracting officer.
AFARS 5153.9001 requires that a COR’s file contain specific documentation, including:

      •	 a copy of the letter of appointment from the contracting officer, any changes to
         that letter, and any termination letter;
      •	 a copy of the contract or the appropriate part of the contract and all contract
         modifications;
      •	 a copy of the applicable quality assurance surveillance plan;
      •	 a record of inspections performed and the results;


10
  We could not determine when the remaining four COR delegation letters were issued relative to the
award date because the delegation letter, contract, or both, did not have the required dates.

                                                   13 

     •	 records relating to the contractor’s quality control system and plan and the results
        of the quality control effort; and
     •	 documentation pertaining to acceptance of performance of services, including
        reports and other data.

In addition to noncompliance with the FAR and its supplements, contracting officers did
not give adequate attention to prevent numerous administrative errors when preparing
and issuing delegation letters. We examined the delegation letters collected during the
audit to determine whether each letter was free of significant administrative errors and
acknowledged on a timely basis by either the ACO or COR and contractor. Table 3
shows our results for each project site visited.

            Table 3. Administrative Errors in ACO and COR Delegation Letters
                                  by Project Site Visited
         Administrative Error                                Edwards AFB                 San Diego            Phoenix          Total
  Delegation Letter Had No Date                                   1                          2                   2               5
  Delegation Was Not Acknowledged                                 7                          6                   0              13
  by ACO/COR
  Contractor Did Not Acknowledge                                       3                       13                  3            19
  Delegation
  Total Delegation Letters Reviewed*                                  15                       14                 11            40
* Total delegation letters reviewed does not equal total administrative errors because each letter may have multiple errors.


Each of the three types of administrative errors in Table 3
prevents the contracting officer, ACO, COR, and                                                A total of 13 delegations
contractor from understanding the delegated                                                      to ACOs or CORs at
responsibilities clearly before contract award. For                                               Edwards AFB and
example, the second row of Table 3 shows that a total of                                        San Diego were never
13 delegations to ACOs or CORs at Edwards AFB and                                               acknowledged by the
San Diego were never acknowledged by the ACO or                                                     ACO or COR.
COR.

In addition, acknowledgments of delegated responsibilities at Edwards AFB occurred
well into the contract’s period of performance; the acknowledgment by one ACO took
47 days, and the acknowledgment by one COR took 74 days. Although not included in
the errors in the table, one Phoenix COR delegation letter was not signed by the
contracting officer, yet it was acknowledged by the COR. All of these administrative
errors prevent the effective delegation of contract administration responsibilities,
including timely acknowledgments by contracting officers, ACOs, CORs, and
contractors.

Project Engineer Acted as COR Without Delegation Letter
At Edwards AFB, we identified a USACE project engineer who performed contract
administration responsibilities as a COR without any delegation from the contracting
officer. DFARS 201.602-2 requires that contracting officers designate a COR in writing.

                                                                  14 

Without written designation as a COR, the project engineer did not have authority to act
on behalf of the contracting officer to protect the interests of the Government through
oversight of contractors during contract performance.

Contract W912PL-09-D-0029 provided for the replacement of taxiway lights and the
repair of taxiway cables. Throughout the performance of the contract, the project
engineer believed he was the COR, served as the COR, and signed various documents
(with the COR designation next to his signature) to record his contractor oversight
activities, including:

    •   issuing the notice to proceed, allowing the contractor to begin work;
    •   approving nine contractor progress payment requests totaling $3,458,560;
    •   conducting the final inspection of completed taxiway repair work; and
    •   grading the contractor’s overall performance.

We identified a second USACE project engineer at Edwards AFB who was delegated, in
writing, as the COR for contract W912PL-09-D-0029 and had acknowledged this
delegation. However, this project engineer did not perform any delegated contract
administration responsibilities for the contract and did not provide an explanation for why
he did not do so.

We discussed this situation with the contacting officer at USACE Los Angeles and both
project engineers at Edwards AFB. The contracting officer was not aware of this
                                           situation and could not explain how it
   The contracting officer believed she occurred. The contracting officer believed she
    had properly delegated the second      had properly delegated the second project
     project engineer to serve as the      engineer to serve as the COR because she had
    COR … . She admitted, however,         received his acknowledgment. She admitted,
         performing no followup.           however, performing no followup to confirm
                                           that the correct project engineer actually
served as the COR for contract W912PL-09-D-0029.

Both project engineers were also unaware of the circumstances regarding the delegation
of COR responsibilities for the taxiway project. The project engineers had previously
stated to us that they did not always receive every delegation letter issued by USACE Los
Angeles contracting officers. Contracting officers should reduce the risk of having CORs
performing contract administration responsibilities without proper delegation by ensuring
that only selected personnel, designated in writing, perform delegated responsibilities.
Therefore, contracting officers, ACOs, and CORs should be provided training to improve
their understanding and adherence to effective procedures for the delegation and
monitoring of contract administration responsibilities.




                                            15 

Higher Priority Needed for Training, Delegation Letter
Preparation, and Followup
Guidance available to contracting officers for delegating contract administration
responsibilities did not always ensure that personnel had sufficient training, delegation
letters were prepared and issued correctly, and only selected personnel performed the
delegated responsibilities. Contracting officers cited the Contract Administration Manual
as their primary source of guidance to use when delegating contract administration
responsibilities to ACOs and CORs. However, the manual only provides a description of
the general responsibilities of an ACO and COR. It does not

   •	 describe the delegation process,
   •	 require that only adequately trained staff be delegated contract administration
      responsibilities,
   •	 require that delegations be properly made and acknowledged before contract
      performance, or
   •	 provide ACO and COR templates that comply with the FAR and its supplements.

Contracting officers must have a complete understanding of the delegation process and its
importance to ensure that the personnel they need to assist them are aware of their
contract administration responsibilities and are prepared to fulfill them before contract
performance.

Contracting officers emphasized during our interviews that they relied on ACOs and
CORs for day-to-day management of their contracts.
The contracting officers became involved only if there         Contracting officers…did
was a problem. They did not see a need to perform              not see a need to perform
followup of their delegated responsibilities following        followup  of their delegated
issuance of the delegation letter. Our observations at              responsibilities.
Edwards AFB, however, demonstrated what can occur
when contracting officers end their involvement in the delegation process after placing
their signed delegation letter in the mail. USACE Los Angeles should update the
guidance in the Contract Administration Manual to include procedures for effective
delegation of contract administration responsibilities before contract performance.

Recommendations, Management Comments, and
Our Response
B. We recommend that the Chief of the Contracting Division, U.S. Army Corps of
Engineers, Los Angeles District:

      1. Require that all contracting officers, administrative contracting officers,
and contracting officer’s representatives assigned to the Los Angeles District be
provided training to improve their understanding and adherence to effective
procedures for the delegation and monitoring of contract administration
responsibilities.


                                             16 

Commander, USACE Los Angeles Comments
The Chief, Contracting Division, responded for the Commander, USACE Los Angeles,
agreed with the recommendation, and stated that USACE would provide mandatory
training to ensure regulatory compliance. Further, he stated that training would be
conducted and documented in the 3rd quarter of FY 2012.

        2. Update the guidance in the Contract Administration Manual and reissue
the guidance to all contracting officers, administrative contracting officers, and
contracting officer’s representatives to reinforce the procedures for effective
delegation of contract administration responsibilities before contract performance.
Specifically, the updated guidance should contain controls that require contracting
officers to:

               a. Verify that personnel delegated to perform contract administration
responsibilities have completed their training requirements.

               b. Prepare and issue delegation letters that comply with the Federal
Acquisition Regulation and its supplements to all personnel performing delegated
responsibilities.

Commander, USACE Los Angeles Comments
The Chief, Contracting Division, agreed with Recommendations B.2.a and B.2.b, stating
that his Division would coordinate with the Contract Administration Branch to update the
Contract Administration Manual to include the appropriate procedures.

For Recommendation B.2.a, he stated that USACE established procedures that track and
monitor the training requirements for all CORs and allow contracting officers to verify
authority before issuing delegation letters. The tracking system also alerts CORs to the
training deadlines.

For Recommendation B.2.b, he stated that USACE revised the delegation letters to
comply with regulatory guidance and was revising its processes to properly track and
note the execution of all delegation letters.

        3. Examine a sample of delegation letters regularly to determine whether
they comply with the Federal Acquisition Regulation and its supplements and
whether contracting officers have eliminated administrative errors. Additionally,
verify that contracting officers are following up with administrative contracting
officers and contracting officer’s representatives to ensure that they are performing
their delegated responsibilities.

Commander, USACE Los Angeles Comments
The Chief, Contracting Division, agreed with the recommendation and stated that their
review of the pre/post award review process has been modified to include reviewing a
sample of delegation letters. Further, he stated that a contract file review will be
conducted during periodic command visits this fiscal year.
                                           17 

Our Response
The comments of the Chief, Contracting Division, were responsive, and no further
comments are required.




                                          18 

Appendix A. Scope and Methodology
We conducted this performance audit from January 2011 through January 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We non-statistically selected four projects at three locations for our review of the USACE
Los Angeles District’s implementation of the Recovery Act. From these four projects,
we reviewed 10 contract actions, including contracts, tasks orders, and contract
modifications valued at $56.6 million, to determine whether USACE Los Angeles
complied with Recovery Act requirements and OMB, FAR, and DoD implementing
guidance. Specifically, we reviewed seven contract actions from two Civil Works
projects, the Tres Rios Project and the San Diego River and Mission Bay project, valued
at $48.5 million. We also reviewed three contract actions from two Military Program
projects at Edwards AFB, valued at $8.1 million. We interviewed and obtained
documentation from operations, contracting, and financial personnel at USACE Los
Angeles as well as each of the project offices.

Recipient Reporting: We reviewed selected recipient reports filed by contractors on the
www.federalreporting.gov Web site. We reviewed the most current recipient reports to
verify that the general purpose of the award was reported as well as the nature of the
activities being performed, location of the recipients, cost and status of the contracts,
project outcomes, scope of the projects, and number of jobs created and retained.
Although we determined that the contractor complied with FAR 52.204-11, “American
Recovery and Reinvestment Act–Reporting Requirements,” and controls over the
oversight of recipient reporting, we did not validate the number of jobs created that the
contractor reported to the www.federalreporting.gov Web site.

Project Execution: We evaluated the contract administration process and the adequacy
of quality assurance controls to ensure project outcomes were achieved. We reviewed the
Contractor Quality Control Plan, which was included in either the contract, statement of
work, or contract administration plan. The inspection reports we reviewed showed that
USACE inspectors documented the date, location, and description of work performed,
and if applicable, deficiencies found during their inspection. We reviewed funding
authorization documents and work allowance letters for consistency to determine whether
funds were transferred from USACE Headquarters to the district and distributed from the
district to the individual projects. Additionally, we visited each project location and took
pictures to illustrate the progress of the work performed at the project sites.

Small Business Oversight: We reviewed three contract actions that involved
disadvantaged small business set-asides. We reviewed the contract files to determine
whether contracting officials reviewed each small business status by obtaining and
reviewing both the Small Business Coordination Record showing that contracting

                                            19 

personnel verified contractor 8(a) Program acceptance with SBA and the contractor
8(a) acceptance letter from SBA. We also held discussions with contracting officials to
determine their procedures for validating contractor 8(a) business status.

Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used the
Federal Procurement Data System–Next Generation; Corps of Engineers Financial
Management System; Resident Management System; and the www.fbo.gov (Federal
Business Opportunities), www.recovery.gov, and www.federalreporting.gov Web sites in
meeting our audit objective. We also relied on Excel spreadsheets created by USACE
contracting personnel.

We compared data generated by each system with the appropriate Civil Status of Funds
reports, funding authorization documents, or project and contracting documentation to
assess the reliability of the computer-processed data. Our audit focused on the project
execution and recipient reporting of 10 contract actions supporting four projects. From
these procedures, we concluded that the data were sufficiently reliable for our audit
purposes.

Use of Technical Assistance
We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
we used provided a basis for logical coverage not only of Recovery Act dollars being
expended but also of types of projects and types of locations of public works projects
managed by USACE.

Prior Coverage of Recovery Act Audits
The Government Accountability Office (GAO), the DoD Inspector General (DoD IG),
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
www.recovery.gov/accountability.

Furthermore, GAO and the DoD IG have issued three reports specifically discussing
Recovery Act issues pertaining to this report. Unrestricted GAO reports can be accessed
at www.gao.gov. Unrestricted DoD IG reports can be accessed at
www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-10-581, “Increasing the Public’s Understanding of What Funds
Are Being Spent On and What Outcomes Are Expected,” May 27, 2010




                                           20 

DoD IG
DoD IG Report No. D-2011-055, “American Recovery and Reinvestment Act–U.S.
Army Corps of Engineers’ Data Quality Review Processes of Civil Works Funding for
the Period Ending December 31, 2009, Were Not Effective,” March 25, 2011

DoD IG Report No. D-2011-052, “American Recovery and Reinvestment Act–DoD Data
Quality Review Processes for the Period Ending December 31, 2009, Were Not Fully
Implemented,” March 23, 2011




                                        21 

Appendix B. Recovery Act Criteria
and Guidance
The following list includes the primary Recovery Act criteria documents:

   •	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   •	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   •	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 2009

   •	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 2009

   •	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009

   •	 OMB Memorandum M-10-05, “Improving Compliance in Recovery Act
      Recipient Reporting,” November 30, 2009

   •	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
      and Reinvestment Act–Data Quality, Non-Reporting Recipients, and Reporting of
      Job Estimates,” December 18, 2009

   •	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
      and Reinvestment Act,” March 24, 2010

   •	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
      Compliance under the American Recovery and Reinvestment Act,” May 4, 2010

   •	 OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
      Act,” September 4, 2010

   •	 Office of Federal Procurement Policy, “Interim Guidance on Reviewing
      Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
      Clause 52.204-11,” September 30, 2009

   •	 Under Secretary of Defense (Comptroller) Memorandum, “Project Cost
      Variations During Execution of ARRA Expenditure Plans for Infrastructure
      Investments,” May 7, 2009


                                          22 

•   FAR and DFARS Procedures, Guidance, and Information:

       o	   FAR 52.203-15, “Whistleblower Protection Under the American Recovery
            and Reinvestment Act of 2009”
       o	   FAR 52.204-11, “American Recovery and Reinvestment Act–Reporting
            Requirements”
       o	   FAR 52.212-4, “Contract Terms and Conditions–Commercial Items”
       o	   FAR 52.212-5, “Contract Terms and Conditions Required to Implement
            Statutes or Executive Orders–Commercial Items,” which is supplemented
            by DFARS 252.212-7001, “Contract Terms and Conditions Required to
            Implement Statutes or Executive Orders Applicable to Defense
            Acquisitions of Commercial Items”
       o	   FAR 52.213-4, “Terms and Conditions–Simplified Acquisitions (Other
            than Commercial Items)”
       o	   FAR 52.214-26, “Audit and Records–Sealed Bidding”
       o	   FAR 52.215-2, “Audit and Records–Negotiation”
       o	   FAR 52.225-21, ‘Required Use of American Iron, Steel, and
            Manufactured Goods–Buy American Act–Construction Materials”
       o	   FAR 52.225-22, “Notice of Required Use of American Iron, Steel, and
            Manufactured Goods–Buy American Act–Construction Materials”
       o	   FAR 52.225-23, “Required Use of American Iron, Steel, and
            Manufactured Goods–Buy American Act–Construction Materials Under
            Trade Agreements”
       o	   FAR 52.225-24, “Notice of Required Use of American Iron, Steel, and
            Manufactured Goods–Buy American Act–Construction Materials Under
            Trade Agreements”
       o	   FAR 52.244-6, “Subcontracts for Commercial Items”




                                      23 

Appendix C. Recovery Act Contract Actions
Reviewed at USACE Los Angeles
                                                                                               Percent
Locations and Contract                                                             Contract   Complete
                                         Purpose                    Dollar Value
        Action                                                                      Type        as of
                                                                                              May 2011
Edwards AFB, CA           Energy and Monitoring Control               $3,174,439    Fixed-      100%
W912PL-09-D-0019          System/Supervisory Control and Data                        Price
                          Acquisition, Phase I

Edwards AFB, CA           Energy and Monitoring Control                1,525,399    Fixed-       93
W912PL-08-D-0049          System/Supervisory Control and Data                        Price
                          Acquisition, Phase II

Edwards AFB, CA           Replacement of Taxiway Lights/Repair         3,458,560    Fixed-      100
W912PL-09-D-0029          of Taxiway Cables, Phase I                                 Price

San Diego River and       Field Investigation, Laboratory Testing       197,763     Fixed-      100
Mission Bay, CA           (Core Sampling and Sediment                                Price
W912PL-09-D-0002          Chemistry), and Report Preparation for
Task Order 2              Mission Bay Harbor Maintenance
                          Dredging Project

San Diego River and       Field Investigation (Eelgrass Surveys)         99,608     Fixed-      100
Mission Bay, CA           and Reports for Mission Bay Harbor                         Price
W912PL-09-D-0002 Task     Maintenance Project
Order 9

San Diego River and       Repair of Mission Bay Middle Jetty           2,250,500    Fixed-      100
Mission Bay, CA           and Replacement of Navigation Aid                          Price
W912PL-09-C-0029

San Diego River and       Maintenance Dredging of Mission Bay          5,308,000    Fixed-      100
Mission Bay, CA           Entrance and Main Channel                                  Price
W912PL-10-C-0008

Tres Rios Environmental   Design of In-Plant Secondary Effluent         799,953     Fixed-      100
Restoration Project, AZ   Pump Station and Regulating and                            Price
W912PL-04-C-0008          Overbank Wetlands for Tres Rios
                          Environmental Restoration Project

Tres Rios Environmental   Construction Services for Flow              17,672,822    Fixed-      100
Restoration Project, AZ   Regulating and Overbank Wetlands                           Price
W912PL-08-C-0011          adjacent to the Wastewater Treatment
                          Plant

Tres Rios Environmental   Construction of In-Plant Secondary          22,146,751    Fixed-       50
Restoration Project, AZ   Effluent Pump Station within the                           Price
W912PL-10-C-0028          Wastewater Treatment Plant

  Total                                                              $56,633,795




                                                   24 

United States Army Corps of Engineers, Los Angeles
Comments




                                     DEPARTMENT OF THE ARMY
                                       U,S. ARMY CORPS OF ENGINEERS
                                        WASHINGTON, D.C. 20314-1000




         CEIR                                                             24 February 2012

         MEMORANDUM FOR Department of Defense Inspector General, 4800 Mark Center
         Drivc~ Alexandria. VA

         SUBJECT: 010 Draft Report American Recovery and ReinvcsUncnt Act-US Army Corps
         of Engineers Los Angeles District Contractor Perfonnancc and Reporting Controls Were
         General ly Effective (ProjeetD2011-0000FH-0146.00I)


         1. Reference Dmft Report, 30 January 2012, SAB. DODIG requested the USACE Los
         Angeles District provide comments on Recommendations B.l , 8.2a. B.2b, and B.3 as
         addressed in the subject report.

         2. Comments from the USACE Los Angeles District, endorsed by the PARe Dallas are
         enclosed.

         3.                                                               the undersigned at




         Enel                            ~~I1~)ffo
                                                J  Deputy Chief,
                                                   HQs USACE Internal Review Officc




                                                              25
                                       DEPARTMENTOFTHE '~RMY
                                      LOS AN'C[l,&$ DISTRICT, COlI I'S OPII1«:IN[[1l5
                                                       1'),), !lOX rum   I
                                          LOS AN't.:t;Lr.s, ell LlfORl;!" _»-lJlS




 CESPL-CT                                                                               23F.bru'!'Y 2012

                          fl)SiOi' Z4 IV; 12
 MEMORANDUM 'J:HRuPrincipal AlSsistant Responsible for $Antracting (CECI'-DAL),
  1100 Commerce Street, Suite 840. Dallas. TX 75242-0216

FOR Commander, HQUSACB, Altn: CEIRlBrcnda Mayes, 441 G Street, NW. W3Shington DC
203 14-1000


SUBJECT: Draft Report on American Recovery and Reinv~tlncnt Act - U.S. Ann)' Corps of
Engineers. Los AngeJes District Contractor.Performance and R;eporting Controls (Project No.
D2011-DOOOFH-OI46.001)



1. PUrpo5C. This memorondum contains the response to the recommendations noted in subject
                            Click to add JPEG file
report. We lake the findingB or tbe report very seriously and appreciote the; efforts ofthe audit
team in providing the rccommendaHons.

2. Recommendation I.

    8 . In response to the reconunendation listed under B. t" requiring that all contracting officers,
administrativc contracting officers, and contracting officer's r~rcsentativ6 assigned to the
Los Angeles District be provided training to improve their understanding and adherence to
effective procedures for delegation and monitoring of contract 'administmlion responsibilities. we
concur. We will accomplish this recommendlltion by providing"'maudatory" training to cover
the specific "areas noted in the audit report to ensure regulatory compliance. This'will be
tlccomptishcd in the 3rd QuartcrofFiseal Year 2012 and documented.

3. Recommendation 2.

    a. J!l response to the recommendation listed under B.2, regnrding the updating oflhe Contract
Administration Manual nod reissuance of guidance to all contrdcting officer.s. administrative
contracting officers, and contmcting officer's representativcs 10 {einforcc the effective delegation
of contract administration responsibilities before contract pcrfonnancc, we concur. We will
coordinate with our Contract AdministratiQn Branch in Construction Division in updating the
manual to include the appropriate procedures.




                                                                      26
 CESPL·CT
 SUBJBCT: Draft Report on American Recovery I1Ild Reinvestment Act· U.S. Army Corps of
 Engineers Los Angeles District Contractor Pmonnancc and R,;porting Controls (Project No.
 D2011 ·DOOOFH·OI46.00I)



 4. Recommendation 3.

    8 , In response to recommendation listed under B.2.a., requiting the verification that petSOlUlcl
delegated to perform contro-ct admillistmtion responsibilities b~ve completed their training, we
concur. We currently have procedures set in place to track andlmonitor tho training requirements
for all contracting officer representatives in accordance with PIL 2008· J().. I. Trnincd, delegated
administrative contracting officer and contracting officer representatives arc posted and available
to all conlTllcting officers to verify authority prior 16 issuance C?f delegation. This some tracking
system is utilized to monitor and akTt contmcting officer representatives of required training
dendlincs.                                                      '
                                                                I
   b. III response to recommendBtiom listed under B.2.b., that delegation letters boprepared and
issued to compl)' with the Federal Acquisition regulations and .its supplements to all pefsolUlel
pafoming delegated responsibilities, we concur. We have ~Vised our administrative .
contracting afficer and contmcting officer representative letters to comply with all regulatory
guidance noted in the report. Furthcr, we are revising aur proCess~ to properly track and.notc
                            Click to add JPEG file
the executjon of these delegation h;Ucrs to include aCknowled*ement b)' all parties.

S. Rcoommcndation 4.

    •. In response to the recommendation listed undcr B.3., regarding review of sample
delegation regularly to dctenninc compliance with the Federal Acquisition regulation and its
supplements and whether contracting officers have eliminatO«oomioistratlve errors. we concur,
and have incorporated this review as part ofour pre/post aWDr~ review proee.u. Additionally, we
will review [oc compliance of duties of administrative contracting officer and contractins officer
representatives as noted. We are scheduled to include contra.e} file review fOT administrative
contracting officer and administrative contracting representatiVe during our periodic command
visits this fiscal year. Contracting officers will be rtminded d~ng the training noted above
regarding their responsibilities to communicate with all Admini:ltrative Contracting Officers and
Contracting officer representative during contract administration.

6. The Corps o[Engince~ Lo~ Angeles District I\wards an average of ISoo contract actions
each fisCal year wiUI a smollslafI ofaCQlIisition personnel. WI) recently increased acquisition
staff and nrc working diligently to ensure proper tr&inlng. deicigntiull and oversight of the
numerous contract actions we mllRoge. We have and will imProve our internal procedures and
incorporate Ute a.udit recommendations 10 further strengthen our processes.




                                                              27
CESP"'CT
SUBJECT: Draft Report on American Recovery and Reinv~stment Act- U.S. Anny Corps of"
Engineers l os AngelesDi.strict Contractor Performance and Reponing Controls (Projeet No.
D2011-DOOOFH-OI46.001)                                    .




FOR THE COMMANDER



                                       ~~
                                       DANIEL M. CARRASCO ~.
                                             Chief, Contracting Division




                      Click to add JPEG file




                                                      28
